In The
Supreme Court of the United States

]

Supreme Court, u.S.
FILED

No.

JUN o 9 ta\
OFFICE OF THE C!.EPI<_

ROY J. MEIDINGER,
Petitioner
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
On Petition For Writ Of Certiorari
To the United States Court of Appeals for the Federal Circuit
and
On Petition for Writ of Certiorari
To the United States Court of Appeals for the District of Columbia Circuit

PETITION FOR WRIT OF CERTIORARI
SL

Roy J. Meidinger
14893 American Eagle Ct.
Fort Myers, FI. 33912
Tel No. 239-694-5597
Email RoyJMeidinger@comcast.net
Signature.
Date.

In The
Supreme Court of the United States
No.

ROY J. MEIDINGER,
Petitioner
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
On Petition For Writ Of Certiorari
To the United States Court of Appeals for the Federal Circuit
and
On Petition for Writ of Certiorari
To the United States Court of Appeals for the District of Columbia Circuit
PETITION FOR WRIT OF CERTIORARI

Roy J. Meidinger
14893 American Eagle Ct.
Fort Myers, FI. 33912
Tel No. 239-694-5597
Email RoyJMeidinger@comcast.net
Signature

Date C/tff'ZoW

QUESTIONS PRESENTED
The questions presented for review, deal with aspects of a single subject matter
reference, The Tax Relief and Health Care Act of 2006, Pub. L. 109—432, div. A, title
IV, §406(a)(1), Dec. 20, 2006, 120 Stat. 2958. (26 USC § 7623(b))
(l) What are each courts’ jurisdiction authority and limitations of Whistleblower
contracts of the Tax Court, and the Federal Claims Court, created under 26 USC §
7623(b)?
(2) What are each courts’ jurisdiction authority and limitations of Whistleblower
Office administrative procedures by the Tax Court, and the Federal Claims Court,
created under The Tax Relief and Healthcare Act of 2006?
(3) Whether, under 26 USC § 7623(b), can a Whistleblower have a contractual
relationship with the IRS Whistlbler Office without an express contract?
(4) When is the contract formed between the Whistleblower and the IRS
Whistleblower Office?

i

LIST OF PARTIES
The caption of the case contains the names of all the parties.
ROY J. MEIDINGER, SR.
Plaintiff - Appellant

Roy J. Meidinger, Sr., Direct: 239-694-5597
Email: royjmeidinger@comcast.net
[NTC Pro Se]
14893 American Eagle Court
Fort Myers, FL 33912

v.
UNITED STATES
Defendant - Appellee

Antonia Ramos Soares, Esq., Direct: (202) 305-7405
Email: antonia.soares@usdoj.gov
[LD NTC Government]
Department of Justice
Commercial Litigation Branch, Civil Division
PO Box 480
Ben Franklin Station
Washington, DC 20044
Patricia M. McCarthy, Assistant Director
Email: patricia.mccarthy@usdoj.gov
[COR Government]
Department of Justice
Commercial Litigation Branch, Civil Division
PO Box 480
Ben Franklin Station
Washington, DC 20044

ii

Corporate Disclosure Statement
There are no Corporations involved in this case.

iii

List of all proceedings in state and federal trial and appellate courts
.

1.

•

2.

•

3.

United States Court of Appeals for the Federal Circuit — Meidinger v.
USA - Case No. 2020-1518
United States Court of Appeals for the District of Columbia Circuit —
Meidinger v. CIR - Case No. 19-1021
United States Court of Federal Claims - Meidinger v. United States Case No. D19-cv-01521

iv

Table of cited Authorities
A.

Amendment One of the Constitution of the Uhited States

B.

The Tax Relief and Healthcare Act of 2006

C.

26 USC § 7623

D.

26 USC § 7623(b)

E.

26 USC § 7623(b)(4)

F.

26 USC § 7623(b)(6)(a)

G.

The Tucker Act - 28 U.S. Code § 1491

H.

IRM 25.2.1

I.

IRM 25.2.2
IRM 25.2.2.4 - Initial Review of the Form 211 by the
Whistleblower Office
IRM 25.2.2.7 - Processing of the form 211 7623(b) Claim of Award
IRM 25.2.2-3 - Acknowledgement Letter

v

Citations of the official and unofficial reports of the opinions and orders entered
in the case by courts or administrative agencies.
The U.S. Appeals Court for the Federal Circuit says that only the Tax Court can
handle contractual disputes,

due to 26 USC § 7623(b)(4) Appeal of award

determination
“Any determination regarding an award under paragraph (l), (2), or (3) may,
within 30 days of such determination, be appealed to the Tax Court (and the
Tax Court shall have jurisdiction with respect to such matter).”
The U.S. Appels Court for the Federal Circuit stated, 26 USC § 7623(b)(6)Additional
rules, (A)No contract necessary
“No contract with the Internal Revenue Service is necessary for any individual
to receive an award under this subsection.”,
(Doc 24 pg 8) “...as demonstrated in the new version of § 7623(b)(6)(A) making clear
that no contract is needed to support an award. This provision supports jurisdiction
in the Tax Court to grant an award absent a contract; it does not enlarge the
jurisdiction of the Court of Federal Claims.”
(Doc 24, pg 6) The D.C. Circuit affirmed the decision of the Tax Court. In its opinion
the Circuit stated that “[ijnsofar as [Mr. Meidinger] seeks to pursue a breach of
contract claim against the Internal Revenue Service, such a claim is properly filed in
the U.S. Court of Federal Claims.” Meidinger v. Comm’r of I.R.S., 771 F. App’x. 11,
12 (D.C. Cir. 2019).

vi

TABLE OF CONTENTS

Questions Presented

1

List of Parties

n

Corporate Disclosure Statement

111

List of all proceedings in State and Federal
Trial Appellate Courts

IV

Table of Cited Authorities

v

The Citations of Opinions and Orders
Entered in the case by Courts

vi

Table of Contents

Vll

Jurisdiction

1

Statement of the case

1

Argument

2

Introduction

2

Background of Dispute with IRS

2

Whistleblower Internal Revenue Manuals

vii

2

Negotiations and specification of award
amounts are no longer done because they
are now mandated by law

3

Bilateral contracts involve equal obligation
5
from the offeror and the offeree
7

Why the Writ should be approved

Vll

Appendix
Order from U.S. Court of Appeals for the
Federal Circuit
Order From the U.S. Court of Appeals for
the District of Columbia

viii

Jurisdiction
JURISDICTION ON WRIT OF CERTIORARI Rule 10(a) a United States court of
appeals has entered a decision in confict with the decision of another United States
court of appeals on the same important matter.
U.S. Court of Appeals for the Federal Circuit Case No. 2020 - 1518
Docket Filings
JUDGMENT. AFFIRMED.
Terminated on the merits after
submission on the briefs.
COSTS: Costs taxed against
Appellant(s). Mandate to issue in
due course. For information
regarding costs, petitions for
rehearing, and petitions for writs
of certiorari click here. [760617]
[JCP] [Entered: 03/08/2021 09:28
AM]

03/08/2021
25

ORDER filed. Roy J. Meidinger's
motion [30] is construed as a
second combined petition for
rehearing and denied. The motion
[311 to supplement is denied. By:
Per Curiam. Service as of this
date by the Clerk of Court.
[774933] [MJL] [Entered:
05/14/2021 08:38 AM]

05/14/2021
32

https://ecf.cafc.uscourts.gov/docsl/01301781452
Mandate issued to the United States
Court of Federal Claims. Service as
of this date by the Clerk of Court.
[776516] [JCP] [Entered: 05/21/2021
03:42 PM]

05/21/2021
35

Statement of the Case
The U.S. Appeals Court for the Federal Circuit says the Tax Court is the only Court
that can arbitrate contractual whistleblower disputes created under 26 USC §

1

7623(b))' the U.S. Court of Appeals for the District of Columbia says the Federal
Claims Court is the only Court that can arbitrate contractual whistleblower disputes
created under 26 USC § 7623(b).
The Court of Federal Claims says there can only be a contractual relationship
between the Whistleblower and the IRS Whistleblower Office if there exists a written
contract that specifies the amount of the reward.
The Appellant believes the Court of Federal Claims is authorized to settle contractual
disputes and the new IRS Whistleblower law requires no written contract to get an
award and the new law specifies the method of determining the amount of the reward.
Argument
Introduction
It is evident the U.S. Appeals Court for the Federal Circuit made a legal error in their
review. The Court continually referenced the old informant reward program of 26
USC § 7623 and cases prior to the Tax Relief and Healthcare Act of 2006 and not the
new Whistleblower reward program that created 26 USC § 7623(b); § 7623 was done
away with and redesignated as § 7623(a). The new law took away the discretionary
authority of the Internal Revenue Service of determining award amounts, removed
the requirement of a written contract and gave greater rightd to Whistlblowers.
Background of Dispute with Internal Revenue Service
The IRS believed that a private contract between the healthcare providers and the
healthcare insurance companies overrode the tax code. (See Docket 34 for discussion
of Healthcare Industry)

2

Whistleblower Internal Revenue Manuals
•

IRM 25.2.1. General Operating Division Guidance for Working Whistleblower
Claims— This chapter provides procedures and guidance for all Service
personnel to follow when dealing with whistleblowers’ claims for award.

•

IRM 25.2.2. Whistleblower Awards — This chapter provides procedures and
guidance for all Service personnel to follow when dealing with payment of
whistleblowers’ claims for award.

Negotiations and specification of award amounts are no longer done because they are
now mandated by law.
The Tax Relief and Healthcare Act of 2006 created a new section of 26 USC § 7623 Expenses of detection of underpayments and fraud, now includes 26 USC § 7623(b),
wherein the old whistleblower law is redesignated as 26 USC § 7623(a). The
designation of either (a) or (b) claim is determined by the tax revenues the
Whistleblower says is lost. If the Whistleblower states the tax revenues meet or
exceed the requirements of § 7623(b)(5), the claim is handled as a § 7623(b) claim.
The new section created a unilateral contract whereby the Whistleblower supplies
information about a credible tax evasion scheme and the IRS collects taxes. The new
section eliminated the discretionary authority of the IRS of determining award
amounts, it created contributing factors that determine the award, see 26 USC §
7623(b)(l - 3).

3

The contract is formed when the Whistleblower accepts the conditions, submits the
211 claim form that identifies a credible tax evasion scheme, and includes supporting
documentation. The IRS Whistleblower Office accepts the 211 claim and assigns a
claim number.
The Whistleblower is subject to fines and imprisonment; the Whistleblower must sign
the 211 forms under penalty of perjury.
26 USC § 7623(b)(6)(c), Submission of Information:
“No award may be made under this subsection based on information submitted
to the Secretary unless such information is submitted under penalty of perjury.”
This legal requirement places a greater responsibility on the Whistleblower;
therefore, the Whistleblower has a stronger contractual claim.
In the Tax Relief and Healthcare Act of 2006, section 406, Congress established the
IRS Whistleblower Office and mandated the IRS create administrative procedures
for handling claims. The primary methods of establishing a legal relationship
between the Whistleblower Office are stated in IRM 25.2.1 and IRM 25.2.2.:
A. IRS claim form must be submitted and certified under penalty of perjury by
Whistleblower,
B. The IRS Whistleblower Office evaluates it and either reject it or accepts it.
C. Upon acceptance, the IRS Whistleblower Office posts the information and
assigns a claim number.
D. The claim number and a notice of acceptance is sent to the Whistleblower.

4

E. The claim number and date establishes the Whistleblower’s right to the
award and places him before other similar claims come in.
The IRS Whistleblower Office did send a notice of acceptance and issued a claim
number.
The Tax Relief and Health Care Act of 2006, 26 USC § 7623(b)(6)(a) removed the
requirement for a written contract to get an award. In the Internal Revenue
Whistleblower Procedural Manuals, i.e., IRM 25.2.1 & IRM 25.2.2, for § 7623(b),
there is no requirement for a written contract. The new law statute of § 7623(b)
removed the discretionary authority of the IRS in determining the amount of a
reward.
Bilateral contracts involve equal obligation from the offeror and the offeree.
An implied contract is a legally binding obligation that derives from the actions,
conduct, or circumstances of one or more parties in an agreement. It has the same
legal force as an express contract, a contract that is voluntarily entered into and
agreed on verbally or in writing by two or more parties. The offer of an award by the
IRS is an unambiguous offer. The submission of a 211 claim form by the
Whistleblower is a straightforward acceptance. The submission of information by the
Whistleblower and the issuance of an acceptance letter listing a 211 claim number by
the IRS show by their conduct, they both wish to be bound by a contract.
The First Amendment guarantees the right of a citizen to “.to petition their
government.” The right to petition the government for a redress of grievances

5

guarantees people the right to ask the government to provide relief for a wrong
through litigation or other governmental action.
The Tucker Act gave citizens the right to bring actions about expressed or implied
contracts in Federal Claims Court. 28 U.S. Code § 1491 - Claims against United
States generally,’ actions involving Tennessee Valley Authority
(a)
(l)The United States Court of Federal Claims shall have jurisdiction to render
judgment upon any claim against the United States founded either upon the
Constitution, or any Act of Congress or any regulation of an executive department,
or upon any express or implied contract with the United States, or for liquidated or
unliquidated damages in cases not sounding in tort.
The Tax Relief and Health Care Act of 2006 did not in any manner change the Tucker
Act or take away the jurisdiction of the Court. There is no record of any amendment
stating the Whistleblowers’ contracts with the IRS Whistleblower Office must be
handled by the Tax Court.
The Tax Court and D.C. Appeals Court have firmly stated the tax court is limited to
reviewing the administrative procedures under the Administrative Procedures Act
and has no authority to adjudicate IRS Whistleblower contractual disputes. The Tax
Court also holds it has no authority to determine an award amount, or order the IRS
to do an investigation. The Tax Court holds this belief under the separation of
authority between the branches of government, that only the IRS can determine the
taxes due. The Tax Court holds that it can only review the administrative procedures
of the IRS, by proxie the IRS Whistleblower Office.

6

26 USC § 7623(b)(4) does not limit the Whistleblower to one Court, in its text
Congress inserted the word “may”; in 28 USC § 1491(a)(1) the words “The United
States Court of Federal Claims shall have jurisdiction to render judgment upon any
claim against the United States...” limiting contractual disputes to Federal Claims
Court.
The Federal Court of Claims has two authorities the Tax Court does not have. The
Court can award damages and/or order specific performance of the contract. Specific
performance is a contractual remedy in which the Court orders a party to actually
perform its promise as closely as possible, because monetary damages are somehow
inadequate to fix the harm.

Why the Writ should be approved
The first amendment guarantees a citizen the right to sue the government. In order
to sue the government concerning Whisthleblower contractual dispute the Appellant
needs a court that has jurisdiction over any contract dispute. The Supreme Court
should answer the four questions and identify the rights of the Whistleblower.

/s/ Roy J. Meidinger

Dated 6/8/2021

7

